TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2014 Statutory Review of
                     Disclosure of Collection Activity With
                           Respect to Joint Returns



                                          July 18, 2014

                             Reference Number: 2014-30-046




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY                            recommend the creation of a separate tracking
REVIEW OF DISCLOSURE OF                               system.
COLLECTION ACTIVITY WITH RESPECT                      WHAT TIGTA RECOMMENDED
TO JOINT RETURNS
                                                      TIGTA made no recommendations in this report.
                                                      IRS officials were provided an opportunity to
Highlights                                            review the draft report and did not provide any
                                                      comments.
Final Report issued on July 18, 2014

Highlights of Reference Number: 2014-30-046
to the Internal Revenue Service Commissioners
for the Small Business/Self-Employed and Wage
and Investment Divisions.
IMPACT ON TAXPAYERS
Internal Revenue Code (I.R.C.) Section
(§) 6103(e)(8) gives joint filer taxpayers who are
no longer married or no longer reside in the
same household the right to request information
regarding the IRS’s efforts to collect delinquent
taxes on their joint tax return liabilities. If the
IRS does not provide employees sufficient
guidance for handling those requests, taxpayer
rights could potentially be violated.
WHY TIGTA DID THE AUDIT
This audit was initiated because the IRS
Restructuring and Reform Act of 1998 added
I.R.C. § 7803(d)(1)(B), which requires TIGTA to
annually review and certify the IRS’s compliance
with I.R.C. § 6103(e)(8). The objective of this
review was to determine whether the IRS is
complying with the provisions of I.R.C.
§ 6103(e)(8) as related to the disclosure of
collection activities with respect to joint filers.
WHAT TIGTA FOUND
IRS procedures provide employees with
sufficient guidance for handling joint filer
collection activity information requests.
However, TIGTA could not determine whether
the IRS fully complied with I.R.C. § 6103(e)(8)
requirements when responding to written
collection activity information requests from joint
filers. IRS management information systems do
not separately record or monitor joint filer
requests, and there is no legal requirement for
the IRS to do so. Further, TIGTA does not
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 18, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2014 Statutory Review of
                             Disclosure of Collection Activity With Respect to Joint Returns
                             (Audit # 201430004)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is complying with the provisions of Internal Revenue Code (I.R.C.) Section (§) 6103(e)(8)
 as related to the disclosure of collection activities with respect to joint filers. The Treasury
 Inspector General for Tax Administration is required, under I.R.C. § 7803(d)(1)(B), to annually
 evaluate the IRS’s compliance with the joint filer provisions of the law. The audit is included in
 our Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 Although we made no recommendations in this report, we provided IRS officials an opportunity
 to review the draft report. IRS management did not provide us with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).
                        Fiscal Year 2014 Statutory Review of Disclosure of Collection
                                    Activity With Respect to Joint Returns




                                              Table of Contents

Background ............................................................................................................ Page 1

Results of Review ................................................................................................. Page 3
          The Internal Revenue Manual Provides Employees Sufficient
          Guidance for Handling Joint Filer Collection Activity
          Information Requests ...................................................................................... Page 3
          Compliance With Statutory Requirements for the Disclosure of
          Collection Activity With Respect to Jointly Filed Tax Returns
          Cannot Be Determined .................................................................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................... Page 5
          Appendix II – Major Contributors to This Report .......................................... Page 7
          Appendix III – Report Distribution List ......................................................... Page 8
          Appendix IV – Previous Audit Reports Related to This Statutory
          Review ............................................................................................................ Page 9
         Fiscal Year 2014 Statutory Review of Disclosure of Collection
                     Activity With Respect to Joint Returns




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2014 Statutory Review of Disclosure of Collection
                                Activity With Respect to Joint Returns




                                             Background

The Taxpayer Bill of Rights 21 added Internal Revenue Code (I.R.C.) Section (§) 6103(e)(8),
which gives joint filer taxpayers who are no longer married or no longer reside in the same
household the right to request information regarding the Internal Revenue Service’s (IRS) efforts
to collect delinquent taxes on their joint tax return liabilities. I.R.C. § 6103(e)(8) requires the
IRS to provide, in writing, collection activity information to joint filers if they send in a written
request. After passage of the Taxpayer Bill of Rights 2, the IRS issued procedures, which stated
that if I.R.C. § 6103(e)(8) is not specifically cited in the request, the IRS can provide either an
oral or written response, based upon I.R.C. § 6103(e)(7).
The IRS Restructuring and Reform Act of 19982 added
                                                                             The Treasury Inspector General
I.R.C. § 7803(d)(1)(B), which requires the Treasury
                                                                                for Tax Administration is
Inspector General for Tax Administration (TIGTA) to                         required to annually evaluate the
review and certify annually whether the IRS is complying                         IRS’s compliance with
with the requirements of I.R.C. § 6103(e)(8).                                       I.R.C. § 6103(e)(8).

A study conducted by the IRS concluded there was a low
volume of joint filer requests submitted under
I.R.C. § 6103(e)(8). An analysis of six former district offices3 over a six-month period in
Calendar Year 2000 identified only five written joint filer requests. As a result of this study,
management in the Small Business/Self-Employed and Wage and Investment Divisions decided
not to develop a separate system for tracking joint filer information requests.
The IRS informs taxpayers of their rights to collection information on jointly filed tax returns,
related to I.R.C. § 6103(e)(8), through a publication by the IRS Chief Counsel’s office4 which
explains what information the IRS can and cannot disclose under this law.
This review was performed with information obtained from the office of the IRS Commissioner,
the National Taxpayer Advocate, and the Privacy, Governmental Liaison, and Disclosure office
located in Washington, D.C.; the Small Business/Self-Employed Division Headquarters located
in New Carrollton, Maryland; and the Wage and Investment Division Headquarters located in
Atlanta, Georgia, during the period April through May 2014. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards

1
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  The IRS now calls these types of locations area offices. An area office is a geographic organizational level used by
IRS business units and offices to help their specific types of taxpayers understand and comply with tax laws and
issues.
4
  Disclosure and Privacy Law Reference Guide (Publication 4639), p. 74-76 (Oct. 2012).
                                                                                                              Page 1
                 Fiscal Year 2014 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                      Fiscal Year 2014 Statutory Review of Disclosure of Collection
                                  Activity With Respect to Joint Returns




                                       Results of Review

The Internal Revenue Manual Provides Employees Sufficient
Guidance for Handling Joint Filer Collection Activity Information
Requests
The provision of the Taxpayer Bill of Rights 2 related to joint filers was enacted out of
congressional concern about the treatment of separated or divorced taxpayers. When introducing
the Bill, Representative Nancy L. Johnson (R-Connecticut) stated:
           The subcommittee learned of many instances where divorced taxpayers who had
           previously signed a joint tax return during their marriage were treated harshly
           when the IRS later disputed the accuracy of their joint tax return. In many cases
           the IRS tried to collect the entire amount of taxes from the wife, even though the
           omitted income or erroneous deductions which caused the deficiency were
           attributable solely to her former husband. All too often, the woman, being
           pursued for payment of taxes due, was not aware that a tax return filed during the
           marriage had been audited or that a deficiency had been imposed on the return.
To address this concern, the IRS revised its Internal Revenue Manual5 to include procedures for
responding to taxpayers who file jointly and submit written requests for information on IRS
collection activity. The Internal Revenue Manual instructs employees to disclose whether any
attempts have been made to collect the tax due from either of the joint filers, the current
collection status, and the amount collected to date.
The Internal Revenue Manual6 also allows employees to provide both oral and written responses
to taxpayers. IRS procedures require employees to respond in writing only when taxpayers
specifically cite I.R.C. § 6103(e)(8) as their authority for making written requests for collection
information on joint return liabilities. If the taxpayer’s written request does not specifically cite
I.R.C. § 6103(e)(8), the IRS has directed employees to provide oral responses when practicable
based upon I.R.C. § 6103(e)(7). The IRS believes that oral responses provide good customer
service to taxpayers because the taxpayers get an immediate answer. TIGTA believes these
procedures provide IRS employees sufficient guidance for handling these requests in accordance
with the law.




5
    Internal Revenue Manual 11.3.2.4.1 (Aug. 29, 2008).
6
    Internal Revenue Manual 5.1.22.3 (Oct. 21, 2011).
                                                                                                Page 3
                        Fiscal Year 2014 Statutory Review of Disclosure of Collection
                                    Activity With Respect to Joint Returns



Compliance With Statutory Requirements for the Disclosure of
Collection Activity With Respect to Jointly Filed Tax Returns Cannot
Be Determined
IRS management information systems do not record or monitor joint filer requests for
information on collection activities. As such, TIGTA could not determine whether the IRS fully
complied with I.R.C. § 6103(e)(8) requirements when responding to written requests from joint
filers because of our inability to identify any joint filer requests received for information on
collection activities. During this review, management from the Small Business/Self-Employed
and Wage and Investment Divisions commented that the IRS’s position has not changed from
last year, and that the IRS does not plan to implement a system to identify or track joint filer
requests for collection activity. In addition, there is no legal requirement for the IRS to record or
monitor cases involving these requests.
TIGTA does not recommend the creation of a separate tracking system and is making no
recommendations in this report. This is the sixteenth year in which we have reported our
inability to provide an opinion on the IRS’s compliance with the provisions of I.R.C.
§ 6103(e)(8).7




7
    See Appendix IV for a list of the prior audit reports related to this statutory review.
                                                                                               Page 4
                   Fiscal Year 2014 Statutory Review of Disclosure of Collection
                               Activity With Respect to Joint Returns



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS is complying with the provisions
of I.R.C. § 6103(e)(8) as related to the disclosure of collection activities with respect to joint
filers. To accomplish our objective, we:
I.    Interviewed IRS management personnel in the Small Business/Self-Employed and Wage
      and Investment Divisions to determine if an IRS system or process has been implemented
      since our last review that tracks joint filer requests and the IRS’s responses for collection
      information relating to the requirements of I.R.C. § 6103(e)(8).
II.   Interviewed various IRS and TIGTA offices responsible for the Taxpayer Advocate
      Management Information System,1 the Entellitrak Communications and Correspondence
      System,2 the Automated Freedom of Information Act System,3 and the Performance and
      Results Information System4 to determine if any systems or processes have been modified
      since our last review to track taxpayer complaints relating to the requirements of I.R.C.
      § 6103(e)(8).
III. Obtained information on the actions taken by the IRS in response to I.R.C. § 6103(e)(8) to
     determine the impact of this code section on IRS programs.
        A. Reviewed all prior TIGTA reports for the Statutory Joint Filer reviews and identified
           the audit results, recommendations, and any corrective actions taken by the IRS.5
        B. Reviewed historic and current Internal Revenue Manual sections to identify any
           updates made in response to I.R.C. § 6103(e)(8).
        C. Reviewed the IRWeb (the IRS intranet site) to identify the impact I.R.C. § 6103(e)(8)
           has had recently on any IRS programs.




1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Entellitrak Communication and Correspondence System is an application used by the IRS to control and track
information and correspondence.
3
  The Automated Freedom of Information Act System is an application system used by the IRS for processing
disclosure casework under I.R.C. § 6103, the Freedom of Information Act, and the Privacy Act.
4
  The Performance and Results Information System is a management information system that provides TIGTA with
the ability to manage complaints received and investigations initiated.
5
  See Appendix IV for a list of the prior audit reports related to this statutory review.
                                                                                                         Page 5
                Fiscal Year 2014 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



       D. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
          identify how the IRS currently informs taxpayers of their rights to collection
          information on jointly filed tax returns under I.R.C. § 6103(e)(8).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance. We determined
that the following internal controls were relevant to our audit objective: the Small
Business/Self-Employed Division Collection function, the Wage and Investment Division Filing
and Payment Compliance function, and the Communications, Liaison, and Disclosure function’s
policies, procedures, and practices for responding to taxpayer requests relating to the
requirements of I.R.C. § 6103(e)(8). Our assessment did not evaluate the controls for ensuring
the IRS’s accuracy in responding to these requests because IRS management information
systems do not record or monitor joint filer requests for information on collection activities.




                                                                                            Page 6
                Fiscal Year 2014 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                             Appendix II

                 Major Contributors to This Report

Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Phyllis Heald London, Audit Manager
Autumn Gill, Lead Auditor
Meaghan Tocco, Senior Auditor




                                                                                         Page 7
                Fiscal Year 2014 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner, Operations Support OS
Deputy Commissioner, Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 8
                 Fiscal Year 2014 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



                                                                                 Appendix IV

                  Previous Audit Reports Related to
                        This Statutory Review

TIGTA, Ref. No. 1999-10-077, The Internal Revenue Service’s Procedures for Responding to
Written Requests for Collection Activity From Joint Return Filers Vary From Statutory Requirements
(Sept. 1999).
TIGTA, Ref. No. 2000-10-148, Letter Report: Compliance With Statutory Requirements for the
Disclosure of Collection Information to Joint Filers Cannot Be Determined (Sept. 2000).
TIGTA, Ref. No. 2001-10-126, Letter Report: Full Compliance With Statutory Requirements for the
Disclosure of Collection Information to Joint Filers Cannot Be Determined (Fiscal Year 2001)
(Aug. 2001).
TIGTA, Ref. No. 2002-40-159, Compliance With Statutory Requirements for the Disclosure of
Collection Information to Joint Filers Cannot Be Determined (Aug. 2002).
TIGTA, Ref. No. 2003-40-110, Fiscal Year 2003 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (May 2003).
TIGTA, Ref. No. 2004-40-058, Fiscal Year 2004 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2004).
TIGTA, Ref. No. 2005-40-041, Fiscal Year 2005 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Feb. 2005).
TIGTA, Ref. No. 2006-40-135, Fiscal Year 2006 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Aug. 2006).
TIGTA, Ref. No. 2007-40-119, Fiscal Year 2007 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2007).
TIGTA, Ref. No. 2008-40-099, Fiscal Year 2008 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2008).
TIGTA, Ref. No. 2009-30-046, Fiscal Year 2009 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Mar. 2009).
TIGTA, Ref. No. 2010-30-026, Fiscal Year 2010 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Feb. 2010).
TIGTA, Ref. No. 2011-30-077, Fiscal Year 2011 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2011).


                                                                                             Page 9
                Fiscal Year 2014 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



TIGTA, Ref. No. 2012-30-084, Fiscal Year 2012 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2012).
TIGTA, Ref. No. 2013-30-079, Fiscal Year 2013 Statutory Review of Disclosure of Collection
Activity With Respect to Joint Returns (Jul. 2013).




                                                                                     Page 10
